No. 20-

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP,

Petitioner,
v.

WISCONSIN ELECTIONS COMMISSION, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,985 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 30, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
